Office of Inspector General

                    General  



     Semiannual Report 

      to the Congress 

          Covering the Period 

    October 1, 2010—March 31, 2011





FEDERAL MARITIME COMMISSION 

                              FEDERAL MARITIME COMMISSION
                                   Washington, DC 20573


                                        April 28, 2011

Office of Inspector General




Dear Chairman Lidinsky and Commissioners:

        The attached report is submitted in accordance with Section 5 of the Inspector General
Act of 1978, as amended. It summarizes the activities of the Office of Inspector General (OIG)
for the period October 1, 2010, to March 31, 2011. The Act requires that you transmit the report
to the appropriate Congressional committees within 30 days of receipt. Your transmittal should
also include any comments you consider appropriate and other statistical tables and reports
required by law.

         During this period we issued five audits/evaluations of Federal Maritime Commission
(FMC) programs or activities, and began one program evaluation. We also commenced planning
activities for the OIG’s annual information security evaluation pursuant to the Federal
Information Security Management Act (FISMA) and began a peer review of the audit operations
at another federal OIG.

        Also during this reporting period, the OIG received 50 complaints. We responded to 27
of the complaints and forwarded 18 complaints to the appropriate FMC program area for
disposition. Five complaints were forwarded to other agency OIGs or programs with jurisdiction
over the subject matter of the complaint. The OIG opened no new investigations and referred no
matters to prosecutorial authorities during this period.

        In addition to these audit and investigative activities and outcomes, the OIG began
meetings with various congressional staff with jurisdiction over the FMC. We continue to
respond to consumers who were victimized as part of an internet scam operation using FMC
indicia, assisted another federal OIG to select financial statement auditors and FISMA
evaluators, and worked with the agency’s Office of the General Counsel to develop coordination
guidelines for investigation of ethics matters and to amend two Commission Orders dealing with
OIG activities. I or OIG staff participated in several activities pertaining to the Council of
Inspectors General on Integrity and Efficiency (CIGIE), including actively serving on the
Legislation Committee and Integrity Committee, the Federal Audit Executive Council and the
Council of Counsels to Inspectors General.

        At the close of this semi-annual period, there were 22 recommendations that are between
13 and 60 months old that are pending management action to close them. The oldest
recommendation, to implement a paperless bill-paying process (identical to those used by most
federal agencies - Pay.gov.), is a “green” alternative to the current paper based process that
would be more efficient for agency staff and consumers alike.
      I appreciate management’s support and I look forward to working with you in our
ongoing efforts to promote economy and efficiency in agency programs.



                                              Respectfully submitted,




                                              /Adam R. Trzeciak/
                                              Inspector General




                                        -2-
                                                      TABLE OF CONTENTS

Transmittal Letter

EXECUTIVE SUMMARY .......................................................................................................................... 1 


BACKGROUND .......................................................................................................................................... 1 


AUDITS/EVALUATIONS........................................................................................................................... 3 
   Summary of Audits and Reviews Issued During the Current Period ....................................................... 3 
   Audits or Reviews with Fieldwork Ongoing ............................................................................................ 7 


INVESTIGATIVE ACTIVITIES ................................................................................................................. 7 


OTHER OIG ACTIVITIES .......................................................................................................................... 8 


SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS ........................................ 14 
   TABLE I – Inspector General Issued Reports with Questioned Costs ................................................... 15 
   TABLE II – Inspector General Issued Reports with Recommendations tht Funds be Put to Better Use
                ......................................................................................................................................... 16 
        Inspector General’s Semiannual Report to Congress


                                  EXECUTIVE SUMMARY 

       This Semiannual Report to the Congress summarizes the activities and accomplishments
of the Federal Maritime Commission (FMC or Commission), Office of Inspector General (OIG
or Office), for the period October 1, 2010, through March 31, 2011. During this period we
issued five audits/evaluations of FMC programs or activities, and began one program evaluation.
We also commenced planning activities for the OIG’s annual information security evaluation
pursuant to the Federal Information Security Management Act (FISMA) and began a peer review
of the audit operations at another federal OIG.

       Also during this reporting period, the OIG received 50 complaints: We responded to 27
of the complaints and forwarded 18 complaints to the appropriate FMC program area for
disposition. Five complaints were forwarded to other agency OIGs or programs with jurisdiction
over the subject matter of the complaint. The OIG opened no new investigations and referred no
matters to prosecutorial authorities during this period.

       In addition to these audit and investigative activities and outcomes, the OIG began
meetings with various congressional staff with jurisdiction over the FMC. We continue to
respond to consumers who were victimized as part of an internet scam operation using FMC
indicia, assisted another federal OIG to select financial statement auditors and FISMA
evaluators, and worked with the agency’s Office of the General Counsel to develop coordination
guidelines for investigation of ethics matters and to amend two Commission Orders dealing with
OIG activities.

                                          BACKGROUND 

       The FMC is an independent agency responsible for the regulation of ocean-borne
transportation in the foreign commerce of the United States. The principal statutes or statutory
provisions administered by the Commission are the Shipping Act of 1984, as amended by the
Ocean Shipping Reform Act of 1998; the Foreign Shipping Practices Act of 1988; and Section
19 of the Merchant Marine Act of 1920.

       October 1, 2010 – March 31, 2011                                   Page 1
        Inspector General’s Semiannual Report to Congress

       The FMC is headed by five Commissioners nominated by the President and confirmed by
the Senate, each serving five-year terms. For Fiscal Year (FY) 2011, the Commission operated
under a continuing resolution at FY 2010 levels. The FY 2010 appropriation was $24.1 million.

       Although the majority of the Commission’s personnel are located in Washington, D.C., it
also maintains a presence in Los Angeles, Seattle, New York, New Orleans, Houston and South
Florida, through area representatives who serve the major ports and transportation centers within
their respective geographic areas. In addition, one at-large area representative operates from
Washington, D.C.

       The FMC/OIG was established in 1989 as required by the Inspector General Act of 1978,
as amended (5 U.S.C. app.). The OIG is an independent audit and investigative unit headed by
an Inspector General (IG) who reports directly to the Commissioners of the FMC. To aid the
FMC in accomplishing its mission, the OIG was provided three full-time staff and a budget of
$750,000.

       The OIG is responsible for conducting audits and investigations relating to the programs
and operations of the FMC. Audits are conducted for the purpose of finding and preventing
fraud, waste and abuse, and promoting economy, efficiency and effectiveness within the agency.
OIG investigations seek out facts related to allegations of wrongdoing on the part of FMC
employees and individuals, or entities having contracts with, or obtaining benefits from, the
agency. The Inspector General Act provides that the OIG shall have access to all agency records
and may subpoena records from entities outside of the agency in connection with an audit or
investigation.

       The IG is required by law to prepare a report summarizing OIG audits and investigations
during the immediately preceding six-month period.          The report is sent to the FMC
Commissioners, the President of the Senate, the Speaker of the House and FMC’s appropriating
and authorizing committees. This dual reporting requirement facilitates and helps to ensure the
independence of the Office.


       October 1, 2010 – March 31, 2011                                   Page 2
        Inspector General’s Semiannual Report to Congress

                                   AUDITS/EVALUATIONS 

During this semiannual period, the OIG issued three program evaluations pertaining to (i)
information technology security, (ii) data protection and privacy and (iii) docket processing
procedures and efficiencies. We completed two audits: the FY 2010 Financial Statement Audit
and the accompanying management letter. We also began an evaluation of the transportation
intermediary bond program and began planning for the FY 2011 Federal Information Security
Management Act compliance evaluation.

                                    Issued Audits and Reviews

Audit Report Number                                          Subject of Audit

       A11-01                                 Evaluation of FMC Implementation of the
                                              Federal Information Security Management Act
                                              for FY 2010

       A11-01A                                Review of FMC’s Data Protection and Privacy
                                              Act Implementation for FY 2010

       A11-02                                 Audit of FMC’s FY 2010 Financial Statements

       A11-02A                                FY 2010 Management Letter to the Financial
                                              Statements

       OR11-01                                Review of the Office of Consumer Affairs and
                                              Dispute Resolution Services, Informal Docket
                                              Processing


             Summary of Audits and Reviews Issued During the Current Period

       In A11-01, Evaluation of FMC Implementation of the Federal Information Security
Management Act for FY 2010, the objectives were to (1) assess compliance with FISMA and
related information security policies, procedures, standards and guidelines. The OIG contracted
with information security consultants to perform an independent evaluation of the FMC security
program.


       October 1, 2010 – March 31, 2011                                     Page 3
           Inspector General’s Semiannual Report to Congress

          The FMC has taken steps to protect the agency’s systems – most important is the
accreditation two years ago of its Network and SERVCON applications - and has made progress
in mitigating weaknesses that led to the prior years’ significant deficiencies concerning IT risk
and recovery planning. All FMC staff and contractors completed annual computer security
awareness training by the end of FY 2010.

          On the other hand, two systems remain in production (i.e., operation) without assessment
of risk to these systems and the data each houses. The two systems are the agency’s “Form-1,”
an Internet-based form to collect tariff internet addresses and other specific organizational
information from ocean common carriers, transportation intermediaries and marine terminal
operators; and “Form-18,” the agency’s internet-based transportation intermediary license
application. Without developing certification and accreditation packages for these systems, FMC
is unable to identify all of the risks that may be associated with operating these systems. As a
result, FMC data may be exposed to unknown vulnerabilities and may not have the safeguards
in-place to prevent unauthorized use, disclosure and modification of FMC data.

          In A11-01A, Review of FMC’s Data Protection and Privacy Act Implementation for FY
2010, the OIG oversaw an independent third-party review of agency use of personally
identifiable information (PII) and its privacy and data protection policies and procedures. PII is
information that can be used alone to distinguish or trace individuals’ identity, such as their
name, social security number, biometric records, etc., or when combined with other personal or
identifying information, which is linked or linkable to a specific individual, such as date and
place of birth, mother’s maiden name, etc. This evaluation satisfies the required third-party
review.

          The FMC has made progress in implementing privacy and data protection practices since
our 2008 review. For example, it updated its Incident Response Policy to include breach-related
procedures, prepared draft privacy impact assessment (PIA) policies and templates and
completed select PIAs. The Senior Agency Official for Privacy has taken a more active role in



          October 1, 2010 – March 31, 2011                                  Page 4
        Inspector General’s Semiannual Report to Congress

data protection activities and the agency’s annual security awareness training includes sections
on privacy and data protection.

       We also noted areas where improvement is possible. The agency needs to finalize its
policies and procedures and perform federally-required PIAs on all agency systems that require a
PIA. Further the agency has not performed a risk assessment for FMC-18 (on-line license
application form) and there is no assurance that appropriate controls have been implemented.

       In A11-02, Audit of the Federal Maritime Commission’s Financial Statements for the
Fiscal Years Ended September 30, 2010 and September 30, 2009, the objective was to opine on
whether the agency’s financial statements follow Generally Accepted Accounting Principles and
present fairly the financial position of the agency. The statements audited were the Balance
Sheets as of September 30, 2010 and 2009, and the related Statements of Net Cost, Statements of
Changes in Net Position, Statements of Budgetary Resources, Statements of Financing and
Statements of Custodial Activity, for the years then ended. This was the seventh consecutive
year that the FMC prepared financial statements for audit. As in the six prior years, the agency
received an unqualified opinion, the highest opinion given by independent auditors.

       In its audit of the Federal Maritime Commission, the independent auditor found that the
financial statements were fairly presented, in all material respects, in conformity with generally
accepted accounting principles; there were no material weaknesses in internal control over
financial reporting (including safeguarding assets) and there was no reportable noncompliance
with laws and regulations tested.

       The FY 2010 audited statements provide insight into the mission and operations of the
agency. The FMC has a single source of funds, Salaries and Expenses, funded by an annual
appropriation that is available for commitments and obligations incurred during the fiscal year in
which the authority was granted. The FMC’s appropriation level for FY 2010 was $24,135,000.
This represents a net increase in appropriation level of $1,335,000 over FY 2009. Of total
authority, approximately 70 percent went to salaries and benefits. The FMC collects remittances
for user fees and penalties, but is not authorized to offset any of its budget authority by utilizing
       October 1, 2010 – March 31, 2011                                      Page 5
        Inspector General’s Semiannual Report to Congress

these funds. The collections are deposited directly into the Treasury General Fund, and captured
in the Statement of Custodial Activity.

       The OIG review of internal control over financial reporting did not find any matters
involving the internal control over its operations that were considered material weakness in the
systems and processes we tested. On the other hand, the OIG did identify vulnerabilities in
agency financial and procurement practices that warranted some corrective actions.        These
findings are presented in A11-02A, FY 2010 Management Letter to the Financial Statements.

       This year’s management letter contains the status of five prior-year findings and four
current-year findings.     Two of the current year findings involved procurement issues,
specifically, the failure to follow Federal Acquisition Regulation requirements pertaining to
vendor competition and selection.

       In OR11-01, Review of the Office of Consumer Affairs and Dispute Resolution
Services, Informal Docket Processing, the review objective was to assess how efficiently the
Office of Consumer Affairs and Dispute Resolution Services (CADRS) processed informal
dockets opened in fiscal years 2005 through 2009. Adjudicated dockets issued between fiscal
years 2005 – 2009 resulted in reparations to consumers totaling $189,739.


       We found that CADRS made recent strides in closing backlogged dockets, starting with
the decision by the former director to contract with a retired FMC employee to focus on open
dockets and the efforts of the current director to convert these dockets into final decisions.
CADRS also adopted operating procedures that should help to ensure that dockets are processed
uniformly. Written procedures are especially important as CADRS considers staff additions to
enhance its outreach mission.


       Notwithstanding recent improvements, the OIG believes that further enhancements in
processing efficiencies are possible. Many applicants have struggled with the informal docket
application, resulting in withdrawn applications or extra staff time to assist applicants. CADRS

       October 1, 2010 – March 31, 2011                                     Page 6
        Inspector General’s Semiannual Report to Congress

also lacked an effective means to keep the informal dockets moving, and to close them.

       The OIG made six recommendations to improve docket processing. These involve all
areas of the docket lifecycle. Perhaps most importantly, we recommended that the Commission
simplify the filing process and that CADRS implement a formalized case management system.
Management has already taken steps to address the findings and has begun to implement the
OIG’s recommendations.

                          Audits or Reviews with Fieldwork Ongoing 

       The OIG began a compliance review near the end of the reporting period. In OR11-XX,
Review of the Financial Responsibility (Bond) Program in the Bureau of Certification and
Licensing, the objective is to assess processes in place to ensure compliance with Part 515 of the
Shipping Act, Subpart C, Financial Responsibility Requirements; Claims Against Ocean
Transportation Intermediaries.

                              INVESTIGATIVE ACTIVITIES

       The Inspector General Act of 1978, as amended, provides that the IG may receive and
investigate complaints or information concerning possible allegations of fraud, waste and abuse
occurring within FMC programs and operations. Matters of possible wrongdoing are referred to
the OIG in the form of allegations or complaints from a variety of sources, including FMC
employees, other government agencies and the general public. During this reporting period, the
OIG received 50 complaints.        We responded to 27 of the complaints and forwarded 18
complaints to the appropriate FMC program area for disposition.           Five complaints were
forwarded to other agency OIGs or programs with jurisdiction over the subject matter of the
complaint. The OIG opened no new investigations and referred no matters to prosecutorial
authorities during this period.

       Additionally, the OIG continues to work with the agency’s Office of General Counsel
concerning an ongoing Internet scam that attempts to defraud the public by, among other things,


       October 1, 2010 – March 31, 2011                                    Page 7
         Inspector General’s Semiannual Report to Congress

using the agency’s official insignia. The OIG also consulted with the agency about its proposed
actions in response to an employee who alleged a privacy breach.

                                   OTHER OIG ACTIVITIES

                                           Review of Legislation

        As required by the Inspector General Act of 1978, as amended, the Office of Inspector
General routinely reviews proposed legislation and regulations. The purpose of these reviews is
to assess whether the proposed legislation or regulation (1) impacts the economy and efficiency
of FMC programs and operations, and (2) contains adequate internal controls to prevent and
detect fraud and abuse.

        During this period, the OIG did not review legislation affecting the FMC. However, we
commented on five draft Commission Orders providing internal policy and direction on various
internal practices.

                 Council of Inspectors General on Integrity and Efficiency Activities

    The Council of Inspectors General on Integrity and Efficiency (CIGIE) was established by
the Inspector General Reform Act of 2008 (P.L. 110-409) as an independent entity to:

    •   address integrity, economy and effectiveness issues that transcend individual Government
        agencies; and
    •   increase the professionalism and effectiveness of personnel by developing policies,
        standards, and approaches to aid in the establishment of a well-trained and highly skilled
        workforce in the offices of the inspectors general.

        The CIGIE is comprised of all inspectors general that are Presidentially-appointed / Senate
confirmed and those that are appointed by agency heads (designated federal entities),
respectively.




        October 1, 2010 – March 31, 2011                                   Page 8
          Inspector General’s Semiannual Report to Congress

       The OIG remains active in the CIGIE operations. For example, the IG is a member of
CIGIE’s Legislation and Integrity Committees. The Legislation Committee is a centralized point-
of-contact and liaison for CIGIE to ensure regular and ongoing communication with
Congressional committees, committee staff and the Government Accountability Office regarding
issues of common interest, and provides input to, and receives feedback from, the Congress on
legislation affecting the IG community as a whole. The Integrity Committee is charged with
receiving, reviewing, and referring for investigation, where appropriate, allegations of
administrative (non-criminal) misconduct against inspectors general and designated senior staff
members of the OIG. The Committee's membership consists of the Federal Bureau of
Investigation's representative to the CIGIE, who serves as its Chairperson; the Special Counsel of
the Office of Special Counsel, the Director of the Office of Government Ethics; and four federal
inspectors general.

       The Assistant Inspector General continues to participate in Federal Audit Executive
Council (FAEC) activities. The FAEC is comprised of senior audit staff from agency OIGs that
discuss and coordinate issues affecting the Federal audit community - with special emphasis on
audit policy and operations of common interest to FAEC members. The Counsel to the Inspector
General participates in the Council of Counsels to the Inspector General (CCIG) activities. The
CCIG consists of senior counsel from agency OIGs who discuss various legal issues that affect
the OIG community.

       Additionally, the OIG counsel participated in a CCIG working group to develop a
training course on IG Authorities, which will be sponsored by CIGIE through the CIGIE
Training Institute.    This was one of two working groups tasked with developing training
curricula for OIG attorneys. These two courses are the first in a series of legal courses the CCIG
plans to develop. The goal is to provide training to OIG attorneys that will address the unique
legal needs of the OIG community. The two courses are expected to launch in the next few
months.




       October 1, 2010 – March 31, 2011                                    Page 9
        Inspector General’s Semiannual Report to Congress

       Also, during the reporting period, in accordance with the Inspector General Reform Act,
FMC/OIG provided legal services, on a reimbursable basis, to both the Architect of the Capitol
OIG and the United States Capitol Police OIG, pursuant to a Memorandum of Understanding.

                                          Peer Review Activities

       Federal Offices of Inspector General are required by the IG Act to have a peer review
performed once every three years. These reviews are to be performed only by federal auditors.
A committee of the CIGIE schedules the review to ensure that resources are available to perform
them and that OIGs do not conduct reciprocal reviews.

       The objectives of a peer review are to determine, for the audit function, whether an
effective quality control system has been established in the office and if policies, procedures and
applicable government auditing standards are being followed.

       The Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010, Public Law
111-203, requires federal offices of inspectors general to include in their semiannual reports to
Congress an appendix containing the results of any peer review conducted by another OIG
during the reporting period, or if no peer review was conducted within that reporting period, a
statement identifying the date of the last peer review conducted by another OIG. The most
recent peer review of the FMC OIG was issued on March 12, 2010, outside of this reporting
period. There are no unimplemented recommendations from this or any previous peer review.
The   March    2010    peer    review opinion     is   available   on   the   OIG’s     webpage   at
www.fmc.gov/bureaus_offices/office_of_inspector_general.aspx.

       During this reporting period, the OIG initiated a peer review of another federal OIG
pursuant to Government Auditing Standards requirements. A draft report will be issued to the
reviewed-OIG and be reported in the subsequent semiannual report to Congress.




       October 1, 2010 – March 31, 2011                                       Page 10
        Inspector General’s Semiannual Report to Congress

                                   Significant Management Decisions

       If the IG disagrees with any significant management decision, Section 5(a)(12) of the
Inspector General Act requires that such disagreement be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by management to change its
response to a significant resolved audit finding must also be disclosed in the semiannual report.

       For this reporting period, there were no significant management decisions made on which
the IG disagreed, and management did not revise an earlier decision on an OIG audit
recommendation.

                                          Access to Information

       The IG is to be provided with ready access to all agency records, information or
assistance when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the
IG to report to the agency head, without delay, if the IG believes that access to required
information, records or assistance has been unreasonably refused, or otherwise has not been
provided. A summary of each report submitted to the agency head in compliance with Section
6(b)(2) must be provided in the semiannual report in accordance with Section 5(a)(5) of the Act.

       During the reporting period, the OIG did not encounter any difficulties in obtaining
assistance or access to agency records. Consequently, no report was issued by the IG to the
agency head in accordance with Section 6(b)(2) of the IG Act.

                                            Audit Resolution

       As of the end of this reporting period, all OIG audit recommendations for reports issued
in prior periods have been resolved. That is, management and the OIG have reached agreement
on what actions need to be taken. As noted below, 22 of these recommendations remain open
past one year.




       October 1, 2010 – March 31, 2011                                     Page 11
        Inspector General’s Semiannual Report to Congress


                                                     Report      Open      Elapsed Months
                Short Title                        Issue Date    Rec.(s)    (as of 3/31/11)
     1. FISMA Evaluation for 2009                    1/28/10       14              13

     2. Bureau Timekeeping Practices                 6/30/09        1              21

     3. Agency Checkout Process                      1/12/09        2              26

     4. Privacy & Data Protection                    9/22/08        2              30

     5. FISMA Evaluation for 2008                    9/22/08        1              30

     6. FISMA Evaluation for 2006                    10/2/06        1              53

     7. Accuracy of Enforcement Databases            3/31/06        1              60



       The oldest recommendation (60 months) involves “Pay.gov,” a payment system available
to all federal agencies that enables agency customers to make secure electronic payments to the
agency directly from their bank accounts or by credit/debit cards. The FMC still processes the
majority of its transactions with customers, including regulated entities, by bank check. In recent
updates, management told the OIG that it will implement Pay.gov with other information
technology modernization projects. However, in its April 26, 2011, update on open
recommendations, management informed that it will now separate Pay.gov implementation from
these projects. Pay.gov implementation will commence in May 2011 and be completed in the
first quarter of FY 2012.




       October 1, 2010 – March 31, 2011                                     Page 12
        Inspector General’s Semiannual Report to Congress

                               Contacting the Office of Inspector General

       Employees and the public are encouraged to contact the OIG regarding any incidents of
possible waste, fraud or abuse occurring within FMC programs and operations.      The OIG
telephone number is (202) 523-5863. To report suspected wrongdoing, employees or the public
may call the OIG Hotline on (202) 523-5865. A confidential or anonymous message can be left
24 hours a day. Complaints or allegations of fraud, waste or abuse can also be emailed to
oig@fmc.gov or to https://www2.fmc.gov/oigcomplaints/ (if the complainant wishes to remain
anonymous).




       October 1, 2010 – March 31, 2011                                 Page 13
         Inspector General’s Semiannual Report to Congress

    SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS 

    IG Act
   Reference                         Reporting Requirement                                 Page(s)

Section 4(a)(2)              Review of legislation and regulations                           8

Section 5(a)(1)              Significant problems, abuses and deficiencies                 None

Section 5(a)(3)              Prior significant recommendations on which corrective          12
                             actions have not been made

Section 5(a)(4)              Matters referred to prosecutive authorities                   None

Section 5(a)(5)              Summary of instances where information was refused             11

Section 5(a)(6)              List of audit reports by subject matter                         3

Section 5(a)(7)              Summary of each particularly significant report                3-7

Section 5(a)(8)              Statistical tables showing number of reports and dollar        15
                             value of questioned costs

Section 5(a)(9)              Statistical tables showing number of reports and dollar        16
                             value of recommendations that funds be put to better
                             use

Section 5(a)(10)             Summary of each audit issued before this reporting            None
                             period for which no management decision was made by
                             the end of the reporting period

Section 5(a)(11)             Significant revised management decisions                      None

Section 5(a)(12)             Significant management decisions with which the                11
                             inspector general disagrees




        October 1, 2010 – March 31, 2011                                         Page 14
          Inspector General’s Semiannual Report to Congress

                                               TABLE I 
         INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS 

                                                                      Dollar Value

                                                                  Questioned      Unsupported
                                                        Number      Cost             Costs
A. For which no management decision has been made
   by the commencement of the reporting period                0       0                  0

B. Which were issued during the reporting period              0       0                  0

   Subtotal (A + B)                                           0       0                  0

C. For which a management decision was made                   0       0                  0
   during the reporting period

   (i)     dollar value of disallowed costs                   0       0                  0

   (ii)dollar value of costs not disallowed                   0       0                  0

D. For which no management decision has been made             0       0                  0
   by the end of the reporting period

E. Reports for which no management decision was               0       0                  0
   made within six months of issuance




         October 1, 2010 – March 31, 2011                                      Page 15
           Inspector General’s Semiannual Report to Congress

                                               TABLE II 
  INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
                   FUNDS BE PUT TO BETTER USE 


                                                               Number    Dollar Value

A. For which no management decision has been made by             0            0
   the commencement of the reporting period

B. Which were issued during the reporting period                 0            0

   Subtotal (A +B)                                               0            0

C. For which a management decision was made during the
   reporting period                                              0            0

   (i)        dollar value of recommendations that were
              agreed to by management                            0            0

   (ii)       dollar value of recommendations that were not      0            0
              agreed to by management

D. For which no management decision has been made by             0            0
   the end of the reporting period

E. Reports for which no management decision was       made       0            0
   within six months of issuance




          October 1, 2010 – March 31, 2011                              Page 16
               HOTLINE COMPLAINTS
The success of the OIG mission to prevent fraud, waste and abuse depends on
              the cooperation of FMC employees and the public.

    A COMPLAINT CAN BE REPORTED BY CALLING OUR 24-HR DIRECT LINE


                                 (202) 523-5865
                                    E-MAIL ADDRESS:

          https://www2.fmc.gov/oigcomplaints/
             TO PLACE A COMPLAINT IN WRITING PLEASE MAIL TO:

                  Federal Maritime Commission
                  Office of Inspector General
                  Room 1054
                  800 North Capitol Street, NW
                  Washington, DC 20573
                  To Be Opened By the IG Only

      THE INFORMATION YOU PROVIDE IS CONFIDENTIAL AND YOU CAN BE ANONYMOUS


              HOWEVER, CALLERS ARE ENCOURAGED TO ASSIST THE INSPECTOR GENERAL BY
        SUPPLYING INFORMATION AS TO HOW THEY MAY BE CONTACTED FOR ADDITIONAL INFORMATION
